No. 19-7

 

 

IN THE
Supreme Court of the United States

SEILA Law LLC,

Petitioner,
v.

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF OF THE CATO INSTITUTE
AS AMICUS CURIAE SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,169 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 29, 2019.

 

Wilson-Epes Printing Co., Inc.
